No.

In the Supreme Court of the United States
MARK JOSEPH DERRICO, PETITIONER,
v.
STATE OF GEORGIA.
ON PETITION FOR A WRIT OF
CERTIORARI TO THE SUPREME COURT
OF GEORGIA
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 33.l(h), I certify that the Petition
for a Writ of Certiorari contains 2013 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 2, 2020.
/s/ AndrewT. Mosley, II
Andrew T. Mosley , II
Counsel for Petitioner

